No.

In The SUPREME COURT OF THE UNITED STATES
Darrell K Saunders
Vinita K Saunders,
Applicant/Petitioner,
v.
Deutsche Bank National Trust Company
As Trustee for CDC Mortgage Capital Trust
2003-HE3, Mortgage,

FILED
SEP 1 3 2019

Respondent.

OFFICE OF THE CLERK
SUPREME COURT. U.S.

PETITION FOR WRIT OF CERTIORARI

Darrell K Saunders
Vinita K Saunders
2410 Haywood Ave.
Chesapeake, Virginia 23324
757-652-8828
darrellksaunders@gmail.com

RECEIVED
NOV 2 6 2019

srnsrgmw

I.

Question Presented

When an individual follows the rules of the Court in mailing an
Appeal, but due to the policies of the 3rd party Commercial Mail
Carrier, the delivery date is listed as 2nd day delivery in lieu of next
day delivery due to the delivery truck having left for the day, is the
individual denied their due process of law per Article XIV of the
Constitution?

1

II Table of Contents

I.

Question Presented

1

II.

Table of Contents

11

III.

Petition of Writ of Certiorari

1

IV.

Jurisdiction

1

V.

Constitutional Provisions

1

VI.

Statement of the Case

2

VII.

Reasons For Granting The Writ

7

VIII. Conclusion

8

IX.

10

Appendix

li

Ill Petition for Writ of Certiorari
Darrell K. Saunders and Vinita K. Saunders respectfully petition this Court
for a Writ of Certiorari to review the Judgement of the Virginia Supreme
Court and it’s dismissal of the case without a hearing.
IV Jurisdiction
The Petitioners invoke this Court’s jurisdiction under 28 U.S.C. §1257,
having timely filed this petition for a Writ of Certiorari within the time
limit allowed.
V Constitutional Provisions
United States Constitution, Amendment XIV:
All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the State
wherein they reside. No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the United States! nor
shall any State deprive any person of life, liberty, or property, without due
process of law! nor deny to any person within its jurisdiction the equal
protection of the laws.
1

VI Statement of the Case
A Foreclosure was held on a property owned by Ethel Benton but the
residents are her daughter, Vinita Saunders and son in law, Darrell
Saunders. An unlawful detainer action was originally filed in the
Chesapeake General District Court by representatives of Deutsche Bank.
Evidence was presented by the defendant showing the Substitute Trustee for
Deutsche Bank did not follow the State Codes for filing accurate information
and notifications. The specific code stated the Substitute trustee must file an
instrument of appointment prior to exercising any instrument. Since the
instrument of appointee was not recorded until just before the foreclosure
sale then all actions taken prior are not valid. The Appointment letter sent
to the defendant and also recorded originally with the Clerk’s Office had
been removed by an Appointment letter issued to Equity Trustees on
November 10, 2015. The current Appointment letter from Deutsche Bank
was dated June 6, 2016 and recorded in the Clerk’s Office on July 12, 2016.
All actions taken by the Trustee prior to July 12, 2016 are not valid
according to Va. Code § 55-59 Item Number 9 “The instrument of
appointment shall be recorded in the office of the clerk wherein the original
2

deed of trust is recorded PRIOR to or at the time of recordation of any
instrument in which a power, right, authority or duty conferred by the
original deed is exercised”. The trustee never gave the defendant the
updated appointment letter before the foreclosure. With the amount of fraud
that has occurred, no person should deal with a firm unless proof is given
that the firm is legitimate.

The days prior to the Foreclosure, Darrell Saunders talked with the trustee
representative Travis Salisbury notifying him that a Bankruptcy had been
filed. Mr. Salisbury said “The Foreclosure sale would be stopped”. In August
the defendants received a notice that the sale had actually taken place.
Another call was placed to Mr. Salisbury in which he said “I figured you had
no other alternatives and thus proceeded with the sale”. In the later trial is
was shown that the defendants could obtain a loan and thus purchase the
house since they were not on the loan given to Ethel Benton, the owner of
the property. The defendant was never given an opportunity to save the
house.
3

A continuance was granted at the first hearing by the Judge on advice for
defendant get counsel. Attorney Karan Carnegie represented the defendants
to ask to have the trial moved from General District Court to the Circuit
Court. Under advice from Karen Carnegie, the defendants did not appear for
the second hearing due to her request to move the case. In lieu of Ms.
Carnegie’s request the Judge ruled in favor of the Plaintiff.

Ms. Carnegie could not represent the defendants at the Circuit Court trial
due to Maternity Leave and the defendants could not locate counsel that
performed litigation on Mortgage issues. The defendants represented
themselves at trial. The defendants provided to the Plaintiffs attorney the
Plaintiffs Interrogatories answers, but not in the time frame requested. On
July 16, 2016 an email was sent to the Attorney for the Plaintiff saying that
the trustee had a recording stating all calls were recorded and to have a copy
for the Defendant which was never provided. Defendant asked the Judge to
rely on documents submitted at the general District Court but the Judge
refused. Defendant requested for the Judge to rely on the information
provided by the Plaintiff for defense and the Judge refused. The defendant
4

requested to rely on Virginia State Codes and the Judge refused. The
defendant requested an extension so that the Plaintiff could review the
answers to the Interrogatories and the Judge refused.

The Judge ruled in favor of the Plaintiff and the Defendant requested an
appeal at which time the Judge said to appeal to the Virginia Supreme
Court.
The Plaintiff presented a Motion for Summary Judgement which contained a
reference to Gemmell v. Svea Fire & Ins. Co., 166 Va.95,100; 184S.E.
457,459(1936) state states according to the Plaintiff that the case asserts the
appellate proceeding is a continuation of the General district Court
proceedings. The Judge erred in not allowing the Defendant to rely on the
documents presented to the General District court. The Defendant requested
to use records of the Clerk or Court. The Plaintiffs Motion for Summary
Judgement states that according to Va. Code § 8.01-389 all documents
recorded among the records and certified by the Clerk of Court are evidence
of the validity of the matters asserted. The Judge erred in not allowing the
defendant to use both the Plaintiffs Motion for Summary which already
contained the Substitute Trustee assignment showing it was
5

not recorded prior to actions being taken or allowing the records of the Clerk
of Court to be used. The Defendant presented the appropriate Virginia Code
to the Judge, Va. Code § 55-59, which states “The instrument of appointment
shall be recorded in the office of the clerk wherein the original deed of trust is
recorded PRIOR to or at the time of recordation of any instrument in which a
power, right, authority or duty conferred by the original deed is exercised”,
showing all actions taken by the Trustee should have been voided and thus
the foreclosure overturned. The Judge erred in not allowing a Virginia Code
to be referenced.

The Defendant presented the appropriate Virginia Code to the Judge, Va.
Code § 55-58.1, Section A, which states the trustee must be a resident of
Virginia. The Trustee appointment letter is to a resident of Pennsylvania and
employed by a law firm shown to be in Maryland. The Judge erred in not
allowing a Virginia Code to be referenced.

The Defendant presented the appropriate Virginia Code to the Judge, Va.
Code § 55-59.2, which states in Section 1, that the foreclosure sale must
6

be advertised by the trustee once a week for two weeks prior to the foreclosure
sale. Section E states that “Failure to comply with the requirements for
advertisement contained in this section shall render a sale of the property
VOIDABLE by the court The Judge erred in not allowing a Virginia Code to
be referenced.
In the District Court references were made that the trustee told the
defendants the foreclosure sale would be stopped. The defendant asked for
the recording of the phone call and never received it. The Judge erred in not
continuing the case until the Plaintiff provided the defendant with the
recordings proving the trustee never gave the defendant a chance to provide
a bid and purchase the property.

VII Reasons for Granting the Writ
The Appeal to the Supreme Court of Virginia was mailed and stamped
being within Rule 5:5(c) of the Code of Virginia. The package was mailed on
the correct date but due to the time of day and the last truck leaving the
facility, Fed Ex would not stamp the package with an overnight delivery
label as requested. The package was sent having the first business date
7

allowed by Fed Ex as possible. The Appeal would have arrived the same
day as delivered regardless of whether it was stamped Next Day or 2nd Day.
A request for filing an extension was sent to the Supreme Court of Virginia
as requested by the Court Clerk. The Supreme Court dismissed the petition
even though it was stamped on a date per the Rules of the Court and
delivered the first business day available.
This case presents the Court with an opportunity to give Darrell and Vinita
Saunders the due process of law to not be deprived of their property per
Amendment XIV of the Constitution

VIII Conclusion
The petitioners, Darrell and Vinita Saunders respectfully requests the
Court issue a Writ of Certiorari to review the Judgement of the State of
Virginia. If deemed by the Court, Remand of the case to the Supreme Court
of Virginia is appropriate.
8

Dated this 13th day of September, 2019
Respectfully

Darrell K Saunders

Vinita K Saunders
2410 Haywood Ave
Chesapeake, Virginia 23324
757-652-8828
Email:
darrellksaunders@gmail.com
9

IX Appendix
Lower Court Ruling
VIRGINIA
_In the Supreme Court of Virginia held at the Supreme Court Building in
the City of Richmond
Appellants,

Darrell Saunders, et al.,
Against Record No. 181509
Circuit Court No. CL17004357-00
Deutsche Bank National

Appellee,

Trust Company, as Trustee, etc,
From the Circuit Court of the City of Chesapeake
Finding that the appeal was not perfected in the manner provided by law
because the appellants failed to timely file the petition for appeal, the Court
dismisses the petition filed in the above-styled case, Rule 5'17(a)(l).
Tested
Douglas B. Robelen, Clerk
“sr

IX Appendix
Lower Court Ruling
VIRGINIA
In the Circuit Court for the City of Chesapeake
Deutsche Bank National Trust Company

)

As Trustee For CDC Mortgage Capital Trust

)

2003-HE3, Mortgage Pass-Through Certificates)
Series 2003-HE3

) Circuit Court

N

No. CL17004357-00

PlaintiffiAppellee

)

v.

)

Vinita Saunders and Unknown Occupants

)

Defendants/Appellants

)

FINAL ORDER

This matter came before the Court on the Motion for Summary Judgement filed by
PlaintiffiAppellee Deutsche Bank National Trust Company, as Trustee for CDC
Mortgage Capital Trust 2003-HE3, Mortgage Pass-Through Certificates, Series
2003-HE3 (“Plaintiff’), by counsel. It appearing to the Court that Plaintiff is
entitled to the requested relief it is accordingly hereby ordered, adjudged, and
decreed that:
A. Plaintiffs Motion for Summary Judgement is Granted; based on failure of
defendants to file responsive pleading & to file an answer to request for
Admissions. “sf’
B. Plaintiff is awarded a judgement for possession of the property that is the
subject of this unlawful detainer action, commonly known as 2410 Haywood
Avenue, Chesapeake, Virginia 23324 (the property);
C.

Upon receipt of a written request from Plaintiffs counsel, the Clerk of the

Circuit Court shall issue a writ of possession in execution of this judgement
pursuant to Virginia Code § 8.01-470 and -471;
D. Upon receipt of a proper request, the Circuit Court Clerk of Court or
General District Court Clerk of Court, whichever is holding it, shall release
any appeal bond posted by Defendant to the person that tendered it;

E. The Circuit Court Clerk of the Court shall forward a copy of this order to all
parties of record; and
F. This order is final.
Entered this 22 day of August, 2018
Judge Brown
Circuit Court Judge
“sr

VIRGINIA:
IN THE CIRCUIT COURT FOR THE CITY OF CHESAPEAKE
DEUTSCHE BANK NATIONAL TRUST
COMPANY, AS TRUSTEE FOR CDC
MORTGAGE CAPITAL TRUST 2003-HE3
MORTGAGE PASS-THROUGH
CERTIFICATES, SERIES 2003-HE3,

)
)
)
)
)

) Case No. CL17004357-00
Plaintiff /Appellee.
v.
VINITA SAUNDERS AND UNKNOWN
OCCUPANTS,

)
)
)
)
)
)

Defendants/Appellants.
FINAL ORDER
This matter came before the Court on the Motion for Summary Judgment filed by
Plaintiff/Appellee Deutsche Bank National Trust Company, as Trustee for CDC Mortgage Capital
Trust 2003-HE3, Mortgage Pass-Through Certificates, Series 2003-HE3 (“Plaintiff’), by counsel.
It appearing to the Court that Plaintiff is entitled to the requested relief it is accordingly hereby
ORDERED, ADJUDGED, AND DECREED that:
_

A. Plaintiff’s Motion for Summary Judgment is GRANTED;

} \ ^>4; l* au** fl/'swe< b
b_

* a &/

oa

£1 ■« I r 9

Plaintiff is awarded a judgment for possession of the Property that is the subject of this
unlawful detainer action, commonly known as 2410 Haywood Avenue, Chesapeake,
Virginia 23324 (the “Property”);

C. Upon receipt of a written request from Plaintiffs counsel, the Clerk of the Circuit Court
shall issue a writ of possession in execution of this judgment pursuant to Virginia Code §
8.01-470 and -471;

t

l

'

D. Upon receipt of a proper request, the Circuit Court Clerk of Court or General District
Court Clerk of Court, whichever is holding it, shall release any appeal bond posted by
Defendant to the person that tendered it;
E. The Circuit Court Clerk of the Court shall forward a certified copy of this Order to all
parties of record; and
F. This Order is FINAL.

Entered this

2-V

day of

,2018.

Circuit Court Judge
. - J - * OIBTiHED TO BE A TRUE COPY
: ■0FTHE-RECORD IN MY CUSTODY
ALAN P, KRASNOFF, CLERK
^iRGUITOaURT, CHESAPEAKE, W
EPOTY CLERK'
k * *

> l

IASK FOR THIS:

n pm J dm.

J

Andrew B. Pittman (VSB No. 47295)
Allison Melton (VSB No. 75192)
Troutman Sanders LLP
222 Central Park Avenue, Suite 2000
Virginia Beach, Virginia 23462
Telephone: (757) 687-7500
Facsimile; (757) 687-7510
E-mail: andrew.pittman@troutmansanders.com
E-mail: allison.melton@troutmansanders.com
Co-Counsel for Plaintiff/Appellee Deutsche Bank
National Trust Company, as Trustee for CDC Mortgage
Capital Trust2003-HE3, Mortgage Pass-Through
Certificates, Series 2003-HE3

SEEN AND

Karen Carnegie, Esq.
308 George Washington Hwy N, Suite 4
Chesapeake, VA 23323
SEEN AND

Vinita Saunders
2410 Haywood Avenue
Chesapeake, VA 23324
SEEN AND

(ikd iiitj fp
Darryl Saunders
2410 Haywood Avenue
Chesapeake, VA 23324

VIRGINIA:
3tt the Supwne. Count of Vhginia Add at the Supreme Count {Building, in. the
dig. a£ {Richmond m {JAvmdag the 15th dag of- (Zugmt, 2019.
Appellants,

Darrell Saunders, .et al.,
against

Record No, 181509
Circuit Court No. CL17004357-00

Deutsche Bank National
Trust Company, as Trustee, etc.,

Appellee.

From the Circuit Court of the City of Chesapeake
On July 8,2019 came the .appellants, who are self-represented, and filed a motion
for stay in this case.
Upon consideration whereof, the Court denies the motion.

A Copy,
Teste:
Douglas B. Rpbefen, Clerk
By:

.u-

A--" 2
CK3
w

ipjity Cjierk

era

ZI

111.

I ? p,
m.
o
Cj

£

CD

rn

3»

^

o
>7
O
P <2 m
P •§ «-

LO

' —rj°
T?
—
£

